<html>
<title> - ADDRESSING THE PROBLEM OF DISTRACTED DRIVING</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





              ADDRESSING THE PROBLEM OF DISTRACTED DRIVING

=======================================================================

                                (111-74)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                          HIGHWAYS AND TRANSIT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            October 29, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure





                  U.S. GOVERNMENT PRINTING OFFICE
53-146 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)






                  SUBCOMMITTEE ON HIGHWAYS AND TRANSIT

                   PETER A. DeFAZIO, Oregon, Chairman

NICK J. RAHALL II, West Virginia     JOHN J. DUNCAN, Jr., Tennessee
JERROLD NADLER, New York             DON YOUNG, Alaska
BOB FILNER, California               THOMAS E. PETRI, Wisconsin
TIM HOLDEN, Pennsylvania             HOWARD COBLE, North Carolina
BRIAN BAIRD, Washington              JERRY MORAN, Kansas
MICHAEL E. CAPUANO, Massachusetts    GARY G. MILLER, California
TIMOTHY H. BISHOP, New York          HENRY E. BROWN, Jr., South 
MICHAEL H. MICHAUD, Maine            Carolina
BRIAN HIGGINS, New York              TIMOTHY V. JOHNSON, Illinois
GRACE F. NAPOLITANO, California      TODD RUSSELL PLATTS, Pennsylvania
DANIEL LIPINSKI, Illinois            BILL SHUSTER, Pennsylvania
MAZIE K. HIRONO, Hawaii              JOHN BOOZMAN, Arkansas
JASON ALTMIRE, Pennsylvania          SHELLEY MOORE CAPITO, West 
TIMOTHY J. WALZ, Minnesota           Virginia
HEATH SHULER, North Carolina         JIM GERLACH, Pennsylvania
MICHAEL A. ARCURI, New York          MARIO DIAZ-BALART, Florida
HARRY E. MITCHELL, Arizona           CHARLES W. DENT, Pennsylvania
CHRISTOPHER P. CARNEY, Pennsylvania  CONNIE MACK, Florida
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      CANDICE S. MILLER, Michigan
ALBIO SIRES, New Jersey              MARY FALLIN, Oklahoma
DONNA F. EDWARDS, Maryland           VERN BUCHANAN, Florida
GENE TAYLOR, Mississippi             ROBERT E. LATTA, Ohio
LEONARD L. BOSWELL, Iowa             AARON SCHOCK, Illinois
RICK LARSEN, Washington
JOHN J. HALL, New York
STEVE KAGEN, Wisconsin
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
VACANCY
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)







                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               TESTIMONY

Betkey, Jr., Vernon F., Chairman, Governors Highway Safety 
  Association....................................................    30
Dingus, Dr. Tom, Director, Virginia Tech Transportation Institute     2
Franklin, Bobby, Executive Vice President, CTIA - The Wireless 
  Association....................................................    30
LaHood, Hon. Ray, Secretary, U.S. Department of Transportation...     6
McCarthy, Hon. Carolyn, a Representative in Congress from the 
  State of New York..............................................     4
Mullett, Randy, American Trucking Associations, Vice President of 
  Government Relations and Public Affairs........................    30
Strassburger, Robert, Vice President of Safety & Harmonization, 
  Alliance of Automobile Manufacturers...........................    30
Ulczycki, John, Group Vice President - Research, Communications & 
  Advocacy, National Safety Council..............................    30
Wytkind, Edward, President, Transportation Trades Department, 
  AFL-CIO........................................................    30

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Bishop, Hon. Tim, of New York....................................    41
DeFazio, Hon. Peter A., of Oregon................................    43
Oberstar, Hon. James L., of Minnesota............................    45
Richardson, Hon. Laura, of California............................    47

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Betkey, Jr., Vernon F............................................    51
Dingus, Dr. Tom..................................................    61
Franklin, Bobby..................................................    71
LaHood, Hon. Ray.................................................    78
McCarthy, Hon. Carolyn...........................................    89
Mullett, Randy...................................................    93
Strassburger, Robert.............................................   104
Ulczycki, John...................................................   116
Wytkind, Edward..................................................   128

                       SUBMISSIONS FOR THE RECORD

Betkey, Jr., Vernon F., Chairman, Governors Highway Safety 
  Association, responses to questions from the Subcommittee......    58
Dingus, Dr. Tom, Director, Virginia Tech Transportation 
  Institute, responses to questions from the Subcommittee........    68
Franklin, Bobby, Executive Vice President, CTIA - The Wireless 
  Association, responses to questions from the Subcommittee......    76
LaHood, Hon. Ray, Secretary, U.S. Department of Transportation:
      Response to question for the Record from Rep. Arcuri, a 
        Representative in Congress from the State of New York....    26
      Response to question for the Record from Rep. Brown, a 
        Representative in Congress from the State of South 
        Carolina.................................................    20
      Response to question for the Record from Rep. DeFazio, a 
        Representative in Congress from the State of Oregon......    11
      Responses to questions from the Subcommittee...............    82
Mullett, Randy, Vice President of Government Relations and Public 
  Affairs, American Trucking Associations, responses to questions 
  from the Subcommittee..........................................   100
Strassburger, Robert, Vice President of Safety & Harmonization, 
  Alliance of Automobile Manufacturers, responses to questions 
  from the Subcommittee..........................................   109
Ulezycki, John, Group Vice President - Research, Communications & 
  Advocacy, National Safety Council, responses to questions from 
  the Subcommittee...............................................   122
Wytkind, Edward, President, Transportation Trades Department, 
  AFL-CIO, responses to questions from the Subcommittee..........   133

                        ADDITIONS TO THE RECORD

Advocates for Highway and Auto Safety, Jacqueline S. Gillan, Vice 
  President, written testimony...................................   136
Senate of Maine, Hon. Bill Diamond, Senator, written testimony...   148

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
              ADDRESSING THE PROBLEM OF DISTRACTED DRIVING

                              ----------                              


                       Thursday, October 29, 2009

                  House of Representatives,
              Subcommittee on Highways and Transit,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:30 a.m., in 
Room 2167, Rayburn House Office Building, Hon. Peter A. DeFazio 
[Chairman of the Subcommittee] presiding.
    Mr. DeFazio. The Subcommittee on Highways and Transit will 
come to order. Today, we are going to begin to delve into the 
issue of distracted driving, not a new issue, but an issue 
recently complicated by the proliferation of technology. We do 
know that 6,000 people died in 2008 where there were reports of 
one form of driver distraction or another, and that is not 
necessarily a comprehensive number. That is a statistic that we 
want to bring down, way down. And there were also a large 
number of injuries and, obviously, a tremendous amount of 
property damage due to distracted driving. It seems to be most 
problematic among young and inexperienced drivers, but it is a 
problem for drivers of any age, depending upon the technology.
    So today we are going to hear from the Secretary of 
Transportation, who has taken on this cause and is determined 
to make it part of his legacy, to help reduce the deaths and 
the injuries, and we will hear from other experts. There is not 
unanimity yet on what steps to take, but we hope to find our 
way to a path to deal with this issue through the hearing. And 
with that, I will turn to the honorable Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Mr. Chairman, for 
calling this hearing. It is not a new problem. In May of 2001, 
when Mr. Petri was Chairman of the Subcommittee, I attended a 
Subcommittee hearing that addressed the same issue and, of 
course, 8 years later we are still faced with some of the 
challenges we discussed in 2001, except the problem has grown 
tremendously since that time because so many people today are 
addicted to the BlackBerry and other gadgets.
    In fact, I remember reading a few months ago where a young 
woman in New York City was so intensely involved with her 
BlackBerry that she walked into an open manhole cover in New 
York City. And then just yesterday, in the Politico newspaper, 
they had a story about a man who was almost hit by a car in 
Georgetown because he was trying to read his BlackBerry as he 
crossed the street.
    And so with all advances in technology, we have witnessed 
an increase in the number of devices and gadgets that can take 
our eyes and our minds off the road. I remember walking, a few 
years ago, walking up the street just from the Rayburn Garage 
to the Capitol Hill Club, and six vehicles passed me, and four 
of those six drivers were talking on their cell phone.
    Most people agree that drivers should not type e-mail 
messages on their BlackBerrys or text their friends on their 
cell phones while they are driving.
    And I want to say that, you know, I certainly, first of 
all, want to commend Secretary LaHood for convening the Summit 
on Distracted Driving and bringing this issue to the forefront 
of the administration's agenda. We certainly all need to do 
everything we can to discourage people from using these new 
gadgets while they are driving and to keep their eyes on the 
road.
    And I certainly look forward to hearing from Secretary 
LaHood and our other witnesses and all the experts on this 
problem. It is a difficult one because there is a problem about 
enforcement and so forth. But we need to emphasize that, 
unfortunately, we have more people killed in 3-1/2 or 4 months 
on the Nation's highways than in all U.S. aviation accidents 
combined since the Wright brothers' flight, and that shows how 
dangerous our highways still are. And in this Subcommittee we 
need to do, and certainly try to do, everything we can to make 
our roads and highways safer. So thank you for calling this 
hearing, and I look forward to hearing from the witnesses.
    Mr. DeFazio. I thank the gentleman for his statement and 
his concern with the issue.
    With that, we will begin with a video presentation by Dr. 
Tom Dingus, Director, Virginia Tech Transportation Institute.

 VIDEO PRESENTATION BY D. TOM DINGUS, DIRECTOR, VIRGINIA TECH 
                    TRANSPORTATION INSTITUTE

    Mr. Dingus. Mr. Chairman, I have been asked today to show 
some videos from a series of studies that we have done that we 
refer to as naturalistic driving studies. These are large-scale 
studies where we collect a variety of sensor data and video 
data using sophisticated instrumentation. This instrumentation 
is in drivers' own cars and trucks. They are not given any 
specific instructions. They just drive as they normally do.
    Thus far we have collected data from over 600 drivers. Each 
driver was driving their vehicle, either car or heavy truck, 
between 4 and 18 months. So we have collected 100,000 hours of 
continuous driving data and over 7 million miles. This is an 
important methodology because it allows us, for the first time, 
to get detailed information on driver behavior just prior to 
crash and near-crash events.
    Human performance and behavior, it is well known, account 
for over 90 percent of vehicle crashes. A subset of these 
behaviors really create most of the crash risk. This is 
impairment due to alcohol primarily. Inattention and 
distraction is a big one, drowsiness, and then judgment-related 
error.
    This study provides a new opportunity to get real-world 
data in the larger context of driving and get detailed pre-
crash information. So what I am going to do is show you some 
examples of the data that we have collected from a variety of 
different studies. This study is called the "Hundred Car 
study." What you are going to see here in a minute is a teen 
driver, 18 years old, who is driving through a neighborhood, 
who is lost and pulls out her cell phone and begins to dial. 
What this little graph here shows you is that she makes a very 
hard-braking maneuver and that is what allowed us to find the 
event.
    But if you look in this screen right here, you will see a 
child on a tricycle come out in front of her and she just 
barely misses that child. So in the lower left she takes out 
her cell phone, she begins to dial and then you see the 
tricycle right there.
    Research has shown that drivers look back and forth between 
their cell phones and the forward roadway. If her sequence of 
eye scanning had been opposite of what it was she probably 
would have hit the child. I will play it one more time.
    This next case is a teen driver talking on a cell phone, 
and this is also a very common occurrence of what we see. This 
is a newly licensed teen driver, 16 years of age. And she 
essentially runs off the road and hits the curb on the right 
and misses a sign by about 12 inches--so I will play it for 
you--and continues to talk. Now, teens aren't very good at 
controlling their vehicles. Talking with one hand on the phone 
and being engrossed in the conversation created a near-crash 
event in that case.
    For this one I have to ensure that there is no video being 
recorded. Some of these are sensitive for privacy reasons. This 
is a driver, teen driver, newly licensed teen driver, texting 
on his phone. It is a little hard to see, but in the lower 
left, he doesn't have either hand on the steering wheel for 
most of the time. He is driving with his knees and he hits the 
left curb and barely misses trees and signs. So he is not in 
good control of his vehicle. He is going about 45 miles an 
hour. We see this kind of behavior all the time.
    This is a semi-tractor-trailer driver. He is using a mobile 
data terminal which includes a full keyboard and a display 
screen. He has got it sitting on his steering wheel. He runs 
off on the right shoulder of the road and then corrects back as 
a truck is passing, but fortunately keeps it in the lane 
without overcorrecting a little bit, or he would have hit the 
truck. But you can see him looking down, typing a message, 
barely able to control his 18-wheel truck. His eyes are off the 
road for somewhere in the neighborhood of 4 or 5 seconds while 
he is doing this task.
    Here is a driver who is a truck driver again, semi-tractor-
trailer. He is going to text while he drives. As you see, 
neither hand on the wheel. He is driving on a road with no 
shoulder. And he just shifted and now he is going to 
essentially run off the road to the right, just off the 
pavement. Two-lane road.
    This is a driver that is reaching for a ringing wireless 
device. It looks like, it is hard to tell, but it looks like he 
is trying to pull it out of a jacket pocket. But you see he 
nearly has a head-on collision while he is trying to get to the 
wireless device. Right there.
    I am going to show you a crash. There is not--I can't show 
you many crashes because the subjects have to agree to release 
the data and, particularly in the case of trucks, truck drivers 
are not willing to do that very often. But this one is blurred 
to the point, with no video playing, that I can show you. You 
are going to see a truck roll over in the median. Now, this is 
a reading task. But it is an external task. As he passes this 
bobtail tractor, he is fascinated by the writing on the side of 
it and he is looking, trying to read what it is. He takes his 
eyes off the road for 5 seconds, comes across a stopped line of 
cars, luckily misses that minivan, but rolls over in the 
median. An interesting aspect of this data is the police report 
said that he was following too closely or tailgating, and that 
a distraction wasn't mentioned as a cause in the police report. 
He didn't even remember it until he was interviewed after the 
crash. And that is a shoe.
    So those are the videos, Mr. Chairman. Can I answer any 
questions at this point?
    Mr. DeFazio. Dr. Dingus, we have you on a subsequent panel, 
so I think we will reserve our questions, if that is okay, so 
we can move ahead with the other--with the Secretary and with 
the Member panel. So thank you. We will call you back up.
    We would ask the Honorable Carolyn McCarthy from New York's 
Fourth District to come forward and testify for 5 minutes to 
the bill she has introduced on this issue.

  TESTIMONY OF THE HON. CAROLYN McCARTHY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mrs. McCarthy. Thank you, Mr. Chairman. And I thank Ranking 
Member Duncan for having me here today. And I appreciate the 
Members being here also. I commend the Chairman and certainly 
the Members for recognizing the importance of distracted 
driving in our Nation.
    Our former colleague--and now Secretary LaHood--has done a 
terrific job in bringing this matter to the attention of 
Congress as well as nationwide. But much like the Department of 
Transportation's recent Distracted Driving Summit, hearings 
such as this serve as a great opportunity to vet plausible and 
effective solutions to this growing problem.
    Having had surgery during July, I could not drive, so I had 
a lot of people driving me around to different appointments. 
And every one of them was text messaging. And I tell you, I was 
scared for my life, mainly because of the way they were 
driving, anything that was going to hit was going to hit on my 
side, and I didn't appreciate that. So it is banned for anyone 
in the car that is driving myself.
    Along those lines, I certainly thank President Obama, who 
in signing an executive order, effectively banned all Federal 
employees from texting behind the wheel.
    Both initiatives represent important steps toward 
cultivating safety on our Nation's roadways, but fall short of 
applying these safety precautions to each and every driver. 
This is why I am here today to testify.
    The dangers of distracted driving are not limited just to 
Federal employees. Several studies, including one conducted by 
Virginia Tech Transportation Institute, recently concluded that 
drivers are 23 times more likely to get into an accident while 
texting and driving. With smart devices that provide access to 
e-mail, text messaging, the Internet and more, individuals are 
becoming more increasingly reliant upon mobile technology in 
their everyday lives.
    Unfortunately, as these devices continue to evolve and 
become more affordable, their inappropriate and unsafe use 
continues to grow as well.
    Almost as rapidly as these devices have developed, so too 
have hands-free and voice-activated technologies, each of which 
is designed to give individuals increased mobility and 
attentiveness while communicating. But even with the best 
technology many manufacturers are coming out with, driver 
attention is taken away from what you are supposed to be doing, 
and that is driving.
    We, as Members of Congress, should seek out ways to 
encourage the use of these technologies in an effort to lower 
the risks throughout our transportation system. Recent surveys 
suggest large majorities, regardless of political affiliation, 
believe irresponsible use of hand-helds behind the wheel should 
be illegal.
    Most recently, a New York Times-CBS poll shows that 90 
percent of adults agree that sending a text message while 
driving should be illegal. Our goal should be to facilitate 
effective changes that keep more drivers' hands on the wheels 
and eyes on the road.
    You saw with what we had just seen as far as some of the 
videos, I have seen many people driving with their knees and 
doing 60 to 70 miles an hour, and it is only by the grace of 
God that they did not cause an accident or cause someone else's 
injury.
    H.R. 3535, the Alert Drivers Act, which I was proud to 
introduce with my colleague, Nita Lowey, I believe represents a 
strong first step toward combating preventable roadway 
accidents. My bill directs the Secretary of Transportation to 
establish minimum texting-while-driving standards of protection 
that State legislators must meet; and will also allow States to 
establish stricter standards as they see fit. And much like the 
laws that establish the legal age to consume alcohol and blood 
alcohol concentration limits for drivers, the bill would 
withhold a percentage of Federal highway funding to States that 
do not comply.
    The bill has garnered the support of consumers and affected 
industries to create a solution to distracted driving.
    While some States like New York State, my home State, have 
taken it upon themselves to ban the practice within its 
borders, others still lack effective and prudent measures to 
curb their behavior. What makes a nationwide ban so important 
is the fact that distracted driving is a practice that is not 
isolated within particular States. Moreover, inconsistent laws 
across our country serve only to confuse and embolden drivers 
who text and drive.
    Let me finish up with saying that we have an opportunity 
here, obviously, to strengthen highway safety. But we also have 
an opportunity to cut down on accidents and deaths which also 
cost this Nation a great deal of money.
    There are many solutions out there. I certainly am willing 
to work with the the Committee and Secretary LaHood to come to 
a solution down the road. With that, I am open to any 
questions.
    Mr. DeFazio. Excellent. Thank you. And thanks for your 
advocacy and your initiative and leadership on this issue.
    Anyone have any questions? If not, thank you for your 
testimony. Appreciate it. Look forward to working with you on 
this issue.
    With that, we would move on to the next panel, which would 
be the Honorable Ray LaHood, Secretary of the Department of 
Transportation.
    Mr. Secretary, thank you for being here today. The 
Secretary called because he wanted to indicate his 
extraordinary interest in being at this hearing and asked if I 
would reschedule so he could be here personally. Normally 
Secretaries don't testify before Subcommittees, and so we are 
particularly honored to have him here. But when he was calling 
to ask me to reschedule, I happened to be turning onto my 
street and driving. And so I had to say please, Mr. Secretary, 
could you hold on for a minute until I can pull over so we can 
continue the conversation? I thought that particularly 
embarrassing to have that conversation while driving and I 
didn't have a hands-free unit with me. So thank you for your 
indulgence, then, and thank you for being here today.

  TESTIMONY OF HON. RAY LaHOOD, SECRETARY, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Secretary LaHood. Mr. Chairman, thank you for changing the 
time to make it convenient for me to be here. And as I told you 
in our phone conversation, this is a very, very important issue 
for me and to you and Ranking Member Duncan, to all the Members 
that are here. Thanks for your interest, and the opportunity to 
appear to discuss what I believe is one of the most important 
issues that we can really address, and that is distracted 
driving.
    Transportation safety is the Department's highest priority. 
Distracted driving is a dangerous practice that has become a 
deadly epidemic. Our research shows that unless we take action 
now, the problem is only going to get worse, especially among 
our Nation's youngest drivers. I think it really is an epidemic 
among our youngest drivers. This trend distresses me deeply, 
and I am personally committed to reducing the number of 
injuries and fatalities caused by distracted driving.
    Four weeks ago the Department of Transportation hosted a 
summit to help us identify, target, and tackle the fundamental 
elements of this problem. We brought together over 300 experts 
in safety, transportation research, regulatory affairs and law 
enforcement. More than 5,000 people from 50 States and a dozen 
countries also participated via the Web.
    We heard from several young adults who had engaged in 
distracted driving and who discussed the terrible consequences 
of their actions. We also heard from several victims of this 
behavior whose lives have been changed forever. Mothers and 
fathers who lost children and children who lost a parent told 
us their stories. And I want you to know that I promised these 
families I would make this issue my cause.
    The unanimous conclusion of the summit participants is that 
distracted driving is serious and an ongoing threat to safety. 
This conclusion is born out by the facts. Our latest research 
shows that nearly 6,000 people died last year in crashes 
involving a distracted driver and more than half a million 
people were injured. This is not a problem caused by just a few 
negligent drivers.
    To the contrary, AAA Foundation for Traffic Safety, a 
nonprofit educational and research organization, reports that 
67 percent of drivers admitted to talking on their cell phone 
within the last 30 days while behind the wheel. And 21 percent 
of drivers indicated they had read or sent a text or e-mail 
message, a figure that rose to 40 percent for those drivers 
under the age of 35.
    As shocking as these numbers are, it is clear that this 
problem is only getting worse. And the youngest Americans are 
most at risk. While the worst offenders may be the youngest, 
they are not alone. On any given day last year, an estimated 
800,000 vehicles were driven by someone who used a hand-held 
cell phone at some point during the drive.
    People of all ages are using a variety of hand-held devices 
such as cell phones, personal digital assistants, navigation 
devices, and they are behind the wheel.
    However, the problem is not just confined to vehicles on 
our roads. It affects all modes of transportation. Experts 
agree that there are three types of distractions: number one, 
visual; taking your eyes off the road; Number two, manual; 
taking your hands off the wheel; and number three, cognitive; 
taking your mind off the road.
    While all distractions can adversely impact safety, texting 
is the most troubling because it involves all three types of 
distractions. In the words of Dr. John Lee of the University of 
Wisconsin, this produces the perfect storm.
    For all these reasons, at the conclusion of the summit I 
announced a series of concrete actions that President Obama's 
Administration and DOT are taking to put an end to distracted 
driving. The President's Executive Order banning texting and 
driving for Federal employees is the cornerstone of these 
efforts and sends a strong, unequivocal signal to the American 
public that distracted driving is dangerous and unacceptable.
    The Executive Order prohibits Federal employees from 
engaging in text messaging while driving government-owned 
vehicles; when using electronic equipment supplied by the 
government while driving; and while driving privately owned 
vehicles when on official government business. This ban takes 
effect government-wide on December 30, this year. However, I 
have already advised all 58,000 DOT employees that they are 
expected to comply with this Order immediately.
    DOT is also working internally to formalize compliance and 
enforcement measures, and we are in close consultation with the 
General Services Administration and the Office of Personnel 
Management, providing leadership and assistance to other 
executive branch agencies to ensure full compliance with the 
Executive Order by all Federal departments and agencies no 
later than December 30.
    DOT is also taking other concrete actions to reduce 
distracted driving across all modes. For instance, 1 year ago 
we began enforcing limitations on texting and cell phone use 
throughout the rail industry.
    We are taking the next step by initiating three 
rulemakings. Number one, to codify restrictions on the use of 
cell phones and other electronic devices in rail operations. 
Two, to consider banning texting messages and restricting the 
use of cell phones by truck and interstate bus operators while 
operating vehicles. And three, to disqualify school bus 
drivers, convicted of texting while driving, from maintaining 
their commercial driver's licenses. We will work aggressively 
and quickly to evaluate regulatory options and initiate 
rulemaking as appropriate.
    Moreover, our State and local partners are key to any 
success we have in addressing distracted driving. I have 
encouraged our State and local government partners to reduce 
fatalities and crashes by identifying ways that States can 
address distracted driving in their strategic highway safety 
plans and commercial vehicle safety plans. And to assist them 
in their efforts, I have directed DOT to develop model laws 
with tough enforcement features for all modes of 
transportation.
    There are other affirmative measures that States can take 
immediately to reduce the risk of distracted driving. For 
example, we are encouraging the installation of rumble strips 
along roads as an effective way to get the attention of 
distracted drivers before they deviate from their lane.
    Education, awareness, and outreach programs are essential 
elements of the action plan. These measures include targeted 
outreach campaigns to inform key audiences about the dangers of 
distracted driving and take high visibility enforcement 
actions.
    We are still researching the effectiveness of combining 
high-visibility enforcement with outreach campaigns in the 
distracted driving context, but we are hopeful that such 
efforts may prove effective in the same way that we have been 
able to use them to reduce drunk driving and increase seatbelt 
use. All of these measures are the beginning, not the end, in 
solving the problem with distracted driving.
    DOT will continue to work closely with all stakeholders to 
collect and evaluate comprehensive distracted driving-related 
data needed to better understand the risks and identify 
effective solutions. And the administration will continue to 
work with Congress, State and local governments, industry and 
and the public to end the dangers posed by distracted driving 
and encourage good decisionmaking by drivers of all ages. We 
may not be able to break everyone of their bad habits, but we 
are going to raise the awareness and sharpen the consequences.
    And I want to thank you, Mr. Chairman, and your 
Subcommittee for the interest you have shown in this issue, and 
I am looking forward to any questions that anyone might have 
about this. Thank you very much.
    Mr. DeFazio. Thank you, Mr. Secretary.
    I first turn to John Mica. I was remiss in not giving John 
time for his opening remarks. So you can do opening remarks and 
any questions you have for the Secretary, John.
    Mr. Mica. Thank you. I will try to be brief. And first I 
want to thank you, Peter, for holding this hearing, along with 
our Ranking Member, Mr. Duncan, and the Secretary for being 
here and focusing attention on this issue. Mr. Duncan and I 
have not had a chance on our side to sit down and talk about 
legislative proposals and our support or opposition--at least 
from the Republican side--or what we favor, but I wanted to 
come this morning for just a minute.
    First of all, usually when the Secretary of the 
administration comes on, they get, you know, boxed by the--no 
matter what you say or do you get criticized by the opposition. 
And I want to do just the opposite. I want to take a minute to 
praise my colleague, former colleague and now our Secretary, 
for taking a very positive initiative.
    I know he was criticized--not enough, or not legislative or 
tough enough, or something--by some folks, but I think he did 
exactly the right thing. He called attention to a growing 
problem and a growing issue. And I think he did it; he started 
in his own back yard, which is with Federal employees and 
others we have jurisdiction over, and he outlined a very 
comprehensive approach.
    I think he has touched on all the things that he can do 
from an executive standpoint and from the administration's 
standpoint, and we are encouraged to work with him on rail, 
trucks, buses, all of the things that you mentioned here today, 
I think we will be very supportive of from our side of the 
aisle. So I came not to criticize, but to praise.
    I do, however, want to say that distracted drivers is one 
part of the problem. There are many types of distractions, and 
we know now we are up to around 6,000 fatalities, as you cited, 
from distraction.
    I remember one ride my wife and I took down a road in 
Tallahassee, and I thought our life was over when a young lady 
coming in the opposite direction was putting her makeup on and 
drove us off the road into a ravine. We were not injured, 
fortunately, but it was a distracted driver. Cell phones and 
textings are other forms of distraction.
    Now, one of the things I would ask is that--well, let me 
lead up to this. First, sometimes like one administration ends 
and the next administration begins, I think we need some 
continuity of efforts to try to improve situations. If you do 
this on a risk-based approach, you just look at the statistics. 
And first of all, 12,865 people died last year not using 
seatbelts. I remember when Norm launched that effort with the 
administration. You know, seat belts, that is nice. And then I 
looked at the number of people that were killed. That is one of 
the highest numbers right there. In fact, it is higher than 
speeding. Speeding is second. It is 11,674.
    And then, of course, one that I happened to see--after I 
left you all last night, and we went home after a wonderful 
dinner and the Historical Society had honored our Committee 
last night, and Ray LaHood addressed them. I saw yesterday's 
hearing in the Senate and it was pretty interesting to hear 
that. And I heard Dorgan lost his mother to a drunken driver. 
That was pretty dramatic commentary from the Senator. But 
alcohol still is an incredible killer; 11,773 last year were 
killed by alcohol.
    I say all this, that we need the continuum of the seatbelt 
proposal, we need tough enforcement, and tough enforcement does 
work.
    Let me just say in conclusion here, we had a huge problem 
in central Florida and Florida with big trucks and deaths. I 
mean, it was--some of the nightly news displays of the carnage 
on the road was horrible. And this is about 2003, I think, I 
took an interest.
    So we looked at a couple of things in enforcement. And then 
I found--and we have made some simple suggestions like you are 
doing here for improvements--and we found out that Florida had 
not passed laws compliant with what the Federal Government 
required. And we went to the legislature. They changed the law 
and they got twice as much money and twice as much enforcement. 
I just got the statistics on the last year and it is absolutely 
dramatic, the lives that haven't been lost through tough 
enforcement. And the Secretary did mention enforcement. So I 
know, in a cooperative effort of enforcing laws--and that 
Senate hearing and this hearing will probably talk about 
carrot-and-stick approaches, getting the right balance of 
carrot and stick from us. But I just say we will work with you 
and try to make the rest of what you started work, because it 
is important in lives saved and lost and tragedies. Lives lost 
is one thing, but the disruption in human--just society.
    I have been getting text messages all week from one of my 
close friends who rode off the highway last week and his wife 
was in intensive care all last week, on the verge of death--so 
far she is coming out of it--in an automobile accident on 95. 
So these are important issues. And I thank you all again for 
approaching this today.
    I apologize. I am distracted by another Committee meeting, 
so I have to speak and run. But thank you.
    Mr. DeFazio. I thank the gentleman for his remarks and his 
concern.
    Mr. Secretary, if I could ask a few questions. And you may 
not be intimately familiar with this program, you have got a 
big Department, but there is something called the Future 
Strategic Highway Research Program which apparently includes a 
large-scale naturalistic driving study. And I am wondering when 
we might expect to hear or see results from that program and 
recommendations that might come from it.
    Secretary LaHood. You know what? I don't know, Mr. 
Chairman. I will have to get back to you on that.
    [Information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Defazio. Sure. I am sorry. We should have given you a 
heads-up. But if you can let us know, that would be helpful. 
Because if you were able to stay to listen to the later panel 
you would find there is some difference of opinion, and I am 
certain perhaps you have heard some of that at your summit. It 
seems like everybody agrees texting is, by far and away, the 
most dangerous activity.
    And then you get down to hand-held cell phones. But there 
are some studies that portray even hands-free, voice-activated 
devices as distracting as a hand-held cell phone, which 
personally I find a little bit difficult to believe. But I 
don't know if much of that came up at your summit and if you 
had any opinion on hand-held versus hands-free cell phones.
    Secretary LaHood. Well, I just spent 2 days in Detroit and 
I rode in a new Taurus. And they have a program where you can 
put your BlackBerry in a little device and it will sync all of 
your numbers. So all you have to do is talk. They have the 
technology, then, where you just say, dial such a number and it 
automatically does it. The epidemic is with people texting 
while driving.
    But I will tell you this, Mr. Chairman, I think any 
distraction is a problem. I think eating a hamburger, putting 
your make-up on, shaving, texting, talking on a cell phone, 
these are all distractions. But the epidemic is really with 
people texting. But all of these other things are distractions, 
too.
    I met a young man from Chicago at the summit whose mother 
was riding a motorcycle, and she was sitting at a stop light 
and another person came up, a woman, and plowed into the back 
of her, going 35 miles an hour. The woman that plowed into his 
mother, who was killed, was painting her fingernails. And now 
he has an organization called the Black Nail Brigade where he 
paints one hand, the fingernails on one hand, and wears a T-
shirt called the Black Nail Brigade and travels all over the 
country trying to persuade people not to text, not to paint 
your nails, not to shave, not to put on make-up, not to eat a 
McDonald's hamburger while you are driving. These are all 
distractions.
    And as much as I like driving the Taurus and as much as I 
like their sync system where you put your BlackBerry in and it 
syncs all of your numbers and you talk to it, it is a 
distraction. Texting while driving is the biggest distraction. 
I think all these things are a distraction.
    Mr. DeFazio. Yes. And I wonder, and I don't know. I 
remember when I was learning to drive they had what in those 
days were movies and they would show crashes to try and sort of 
put a little reality on you as a kid. And I did see one YouTube 
video clip of a bunch of kids in a car crash due to distracted 
driving, very dramatic. I wonder if we are looking at either 
disseminating or developing some materials that could be used 
in schools and in drivers' ed programs around the country. It 
is clear distracted driving is a particular problem for young 
drivers because of the combination of inexperience and use of 
these devices. It seems to me that would be a useful 
educational tool.
    Secretary LaHood. I think there are three solutions for 
texting, and I think education is one of them. I think we have 
to get into driver education programs and really teach 
children, 16-year olds when they are learning how to drive, 
that you need to put your seatbelt on. And they do teach that.
    And we need to teach them the second thing you need to do 
is put your BlackBerry in the glove compartment, put your cell 
phone in the glove compartment, so that you are not distracted 
from what you are supposed to be doing.
    So I think education. I think personal responsibility. I 
think we need to teach the idea that you have a personal 
responsibility for people, your friends that are in the car, 
and people around you. And I also think enforcement--.08 and 
seatbelt laws prove that enforcement works. Everybody in 
America knows what .08 means now when they see it. Ten years 
ago they probably did not. Everybody knows click it or ticket, 
what that means. It means that when you click it, you are 
putting your seatbelt on and you are going to avoid a ticket.
    Enforcement is important. And I know there are not enough 
police to enforce all these things. That is why I talk about 
personal responsibility, and I also talk about education. But 
enforcement is very important, too, and that is what all of you 
are going to have to get into when you write your bill.
    Mr. DeFazio. This will be my last question then I will turn 
to Mr. Duncan. There are proposals to require the States to 
move forward with some restrictions or sanctions and/or 
enforcement, under--as Mrs. McCarthy has in her legislation--
under penalty of loss of Federal funds. Do you think we should 
go that far, or do you have a particular opinion on that?
    Secretary LaHood. Well, I do think the States are the 
incubators. I am proud of our State of Illinois, where Mr. 
Lipinski and Mr. Schock and I come from. They have passed a 
very, very good law. But 17 other States have passed good laws, 
too. But I believe in the carrot-and-the-stick approach, and I 
am not going to sit here and tell all of you what bill you 
ought to be supporting.
    But we are going to work with you and we will work with 
Senator Schumer and Senator Rockefeller. We will work with you, 
Mr. Chairman, and anybody else that wants to put legislation 
together. We need legislation. And we are willing to work with 
you on this. And we have got to look at what the States have 
done, because they are the incubators for these things.
    Mr. DeFazio. Thank you. I turn now to Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. And Mr. 
Secretary, I commended you during my opening statement for your 
recent summit. And I will tell you today that I will support 
you as strongly as I can on anything that you want to do on 
this.
    This is not a Republican or Democratic thing. It is a very 
serious and growing problem, as you have said. And I know all 
of us have personal stories. And I frequently have used a cell 
phone while driving myself. I have never sent a text message.
    But I will say this: If this hearing had been held last 
week, as scheduled, I probably wouldn't have felt as strongly 
about it as I do now. But Friday afternoon when I flew home to 
Knoxville, I was driving on the interstate connector on a road 
where the people go 65 and 70 miles an hour. And I have an XM 
radio in my car and I--you know, you can push buttons and go 
from AM, FM and back to the XM and a lot of different stations. 
And I took my eyes off the road, and then I looked up after a 
few seconds and I saw the pickup truck up in front of me had 
come almost to a stop. I had to suddenly jerk my wheel. I went 
across from the left lane to the right lane and into the 
emergency lane and went into a spin, came back and whammed into 
the concrete median. Did a complete 360-degree turn in heavy 
traffic when cars were zipping by me right and left. And I 
still can't believe that I wasn't hit or that I didn't hit 
somebody else in all that heavy traffic. It is just miraculous. 
But it was because I was distracted, and I learned my lesson in 
a very dramatic way. And I am very fortunate that it wasn't 
much much worse.
    But I thank you for this effort you are making. Education 
is important, calling attention to the problem in every way 
that you can, as you are doing here this morning, that is 
important.
    I do have a question about, and you alluded to it, in that 
sometimes the police and the law enforcement say that they are 
overloaded trying to handle the rapes and the murders and all 
that. And they really, in the past, haven't had as much 
interest maybe as they should have about trying to enforce laws 
against the use of a cell phone and things like that. What do 
you think we can do to get more support from the law 
enforcement community on this?
    Secretary LaHood. Well, I think we will have it, Mr. 
Duncan. I think that law enforcement is very concerned about 
this. They know that this is a serious issue and they are the 
ones that investigate serious accidents and see people that are 
injured. And so I think we will have their support.
    Mr. Duncan. Did you have good participation in your summit 
from the law enforcement?
    Secretary LaHood. Law enforcement are very interested in 
this and they are very concerned about it. And I believe that 
when States pass laws, State police and others will enforce 
them, and have done that. And I think it will be true at the 
Federal level.
    I think that the example of that is, you know as well as I 
do, in the old days maybe when there weren't .08 laws and there 
wasn't as much attention on drunk driving, maybe law 
enforcement didn't look at it as seriously. But I can tell you 
now that when a policeman comes up on somebody whose blood 
alcohol level is above the legal limit, they are arrested.
    They take these things seriously because it is in the law, 
and they are charged with the responsibility of really 
enforcing these laws. And I believe they will take that 
responsibility seriously.
    Mr. Duncan. Well, you made a good point about the .08. When 
I first started practicing law in the early seventies, the 
limit in Tennessee and in most States was .15. And then because 
of action by this Committee, all the States lowered their 
thresholds, and that is important. But we have met success with 
those types of actions, and so I will support those types of 
actions in regard to this problem as well. And I thank you very 
much for taking time out of your busy schedule to be with us 
this morning.
    Mr. DeFazio. Mr. Coble, do you want to recognize your 
guests? And then we will go on with questions.
    Mr. Coble. Well thank you, Mr. Chairman.
    Mr. Secretary, good to have you with us. Mr. Chairman, and 
the gentleman from Tennessee, we are blessed, we are honored 
today to have friends from the Danish Parliament who will be 
visiting in our country I think for another week. I say to you, 
my friends from Denmark, you will be another week, will you, in 
this country? Well, it is good to have you.
    And, Mr. Chairman, I invited them to sit in on our 
transportation hearing. And we have a member who sits on the 
Transportation Committee in Copenhagen, and she especially was 
interested. Thank you, Mr. Chairman. And thank you all for 
being with us.
    Mr. DeFazio. Thank you, Howard. Welcome here to the 
hearing.
    Mr. Bishop, I recognize you, but I would also like to 
recognize that I understand you have a bill that deals in 
particular with the issues of novices and distracted driving, 
and I want to recognize your work in that area and recognize 
you for your questions.
    Mr. Bishop. Thank you very much, Mr. Chairman. Mr. 
Chairman, I had wanted to make an opening statement, but out of 
deference to Secretary LaHood's time--and if you would prefer 
if I could wait till the third panel to make that opening 
statement, that is fine with me.
    But if I may, just to Secretary LaHood, thank you very much 
for being here. I just wanted to commend you on your comments 
with respect to drivers' ed. And that is one of two bills that 
I am working on, an effort to standardize and modernize our 
drivers' ed curriculum.
    And it really is, I found, shocking to learn that 15 States 
do not require any form of basic driver education for teen 
drivers; nineteen States don't require any form of classroom 
training before licensing. And we have not updated our drivers' 
ed curriculum since the 1940s.
    So I welcome your comments. I look forward to working with 
you and I, as I say, I am working on legislation that would 
address these issues.
    Mr. Chairman, also if I may request unanimous consent to 
place into the record testimony on this subject from Advocates 
for Highway and Auto Safety.
    Mr. DeFazio. Without objection.
    Mr. Bishop. Thank you. I yield back the balance of my time, 
and I will make my opening statement before the third panel. 
Thank you.
    Mr. DeFazio. Okay. On the Republican side now, Mr. Latta.
    Mr. Latta. Thank you very much Mr. Chairman. I don't have 
an opening statement, but if I could ask just some questions of 
the Secretary.
    Mr. Secretary, thanks very much for being with us today and 
for your passion on the subject. You know, I think that all of 
us in elective office, we put a lot of miles on our car, and I 
think you told me the age of one of your cars is about the age 
of one of mine. And I am sure that I have seen everything that 
you have seen, everything from people now watching television 
driving down the road at night, to reading books, newspapers; 
of course all the things you mentioned about eyelashes, 
lipstick, hair.
    Years ago my uncle, with a carload of kids, dropped his 
cigarette lighter underneath him when he was driving and so 
that was catching the seat on fire at the same time.
    But you know--and then probably topping them all off, 
several years ago my wife and I were on the interstate and a 
car zipped by. And as it was going by, I thought, boy, they are 
going by quickly. It was a young lady driving the car, changing 
her clothes while driving. And at that time she had her sweater 
off the top of her head driving down the road about 70-plus 
miles an hour.
    And I have also been trying to instill in our kids--my 
daughters are 17 and 16, and the one has been driving for about 
a year and a half. Our youngest daughter, who is 16, is 
finishing up her driver's education right now in Ohio. And in 
Ohio, several years ago when I was in the legislature, we 
changed the law that you had to have 50 hours with your parent 
in the car before you could get that license. I voted for that 
bill. I helped the sponsor on it. I was on the Committee. And 
let me tell you something. I never realized how long 50 hours 
is with your kids in the car. It is a long time. But it really 
shows to me that, you know, younger kids need that. Because I 
remember when I got my driver's license license years ago, I 
drove home. I mean, I went down and took the test and that was 
the beginning of driving.
    But we are all very, very concerned about distracted 
driving, especially now when we are talking about what could be 
happening with folks using texting or their cell phones. 
Because one of the things I have tried to do, and I hope my 
kids have listened to me, because I said there are two things 
in their first year of driving, they are not allowed to listen 
to the radio in car. And, of course, there's no cell phones to 
be used at all. But you know, and I have tried to trick them to 
figure out if they are listening to the radio in the car, 
because I put it on a station I know they wouldn't have been 
listening to. And if I get in the car and they are listening to 
a different station, I have a talk with them.
    But you know, when we are talking about on the distracted 
driving end, would you agree that from the studies, especially 
the one that we saw a little bit earlier, that with texting and 
talking on the phone there is a difference between that and 
reading and different things right now? I know how passionate 
you are about all distractions, but would you say that the one, 
especially just on the texting right now and speaking on 
phones, might be a little more different than some of the other 
ones right now?
    Secretary LaHood. Well, Mr. Latta, you probably don't want 
to hear this, but I think all of these things are a 
distraction. I really do. I am not going to give up on this 
idea. Texting is an epidemic, particularly among young people. 
But in Washington, D.C., talking on a cell phone is illegal. 
Now, when I drive around Washington, which I do in my 1998 
Buick, I see everyone, just about everyone on a cell phone. And 
I know that they can't be driving safely when they are doing 
that.
    Mr. Latta. Just to follow up with that, Mr. Secretary, I 
guess one of the things that--and you mentioned that you have 
been up in Detroit and seen the vehicles and how they are being 
produced, that you can use more hands-free. But it is almost to 
the point anymore, are we going to even be able to stop it? I 
doubt it, because even though we have passed very restrictive 
drunk driving laws--I served as the Chairman of the Judiciary 
Committee in the Ohio Senate when I was in the legislature. I 
served as a criminal justice in the House. Year after year, we 
had bill after bill after bill dealing with drunk driving, but 
we haven't been able to get that under control. But hopefully 
we are instilling folks with the major penalties.
    But at the same time, you know, if we are able to get 
vehicles out there that can allow people to use some of these 
devices, hands-free, in my opinion that is a much better thing 
to do because, again, folks are still playing with their 
radios, they are still playing with their CDs, and there are a 
lot of things in the car that they are still doing.
    But I think, in my opinion, and I know where you are coming 
from, that any distraction--but I don't think that we are ever 
going to prevent that. You know, we can put all the laws on the 
book, because I did in my Judiciary Committee when I was in the 
Ohio Senate. I had 141 bills in one session.
    But I just think that--and I understand that what you are 
saying, that you believe they are all a distraction. But would 
you just, again, though, if you could make something safer, 
wouldn't you agree that is the way to go?
    Secretary LaHood. Well, I will say this. I will say that 10 
years ago I am sure people never thought we would get to where 
we are at with .08, because you know as well as I do, in the 
old days police used to put somebody in a police car and drive 
them home or give them a pat on the back and say, you know, go 
on home. But we have, because of strong advocacy groups, 
because of good laws by Congress, because of very good 
enforcement.
    And the same is true of click it or ticket. Somebody that 
works at DOT told me recently they got a ticket in Washington, 
D.C. for not having their seatbelt on, and I think it is like a 
$50 ticket.
    So, Mr. Latta, I am not going to give up on the idea that 
all of these things are a distraction. I am not. And I think 
they are.
    Mr. Latta. I appreciate that, and maybe we can hear more 
discussion later on. Thank you very much, Mr. Secretary. Thank 
you, Mr. Chairman.
    Mr. DeFazio. I thank the gentleman. Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. I do not have an 
opening statement but I would like to ask the Secretary a 
question.
    Mr. DeFazio. That is the point we are at, go right ahead.
    Mr. Boccieri. Thank you. Mr. Chairman, or Mr. Secretary, 
you had suggested that in a recent hearing that you were not 
going to equivocate on any kind of distraction, whether it is 
trains, planes or automobiles, distractions were to figure out 
a way to get cell phones, texting and all other laptops out of 
the hands of people who were delivering the public somewhere 
safely.
    And in light of what happened with respect to the pilots 
who overflew their checkpoints, are you advocating for a ban of 
cell phone use or operators of planes and trains? I think there 
was a train in Los Angeles that the driver or the operator was 
texting while driving. Is this the goal of----
    Secretary LaHood. We have put out a restriction now that--
an enforcement that train drivers are not allowed to use cell 
phones or BlackBerrys. They are not allowed to. Absolutely.
    The two pilots that flew the plane from San Francisco and 
overflew Minneapolis, their licenses have been revoked by the 
FAA. They have an appeal process that they can follow. Pilots 
who are flying hundreds of people, over 100 people from one 
point to another, when those people get on the plane, they 
think they are going to get there safely. The last thing they 
want to hear is that the pilot had their laptop, checking their 
schedules, trying to figure out when the next time is they were 
going to work. And that is why their licenses were revoked.
    There are three investigations going on: one by the FAA, 
one by Delta, and one by the NTSB. We cannot allow this to 
happen.
    People who drive school buses, light rail, trains, 
automobiles, should not be distracted by anything.
    Mr. Boccieri. It is already illegal to drink and drive. It 
is already illegal to be distracted while you are driving. How 
do you propose the mechanisms to enforce these types of 
regulations?
    Secretary LaHood. Personal responsibility, education, and 
enforcement. Good laws with tough penalties, and .08 proves we 
can get there. We are not there yet; but it is not perfect. 
People are still killed by drunk drivers and injured by drunk 
drivers. But we have made progress.
    Click it or ticket. If you don't have a seatbelt on, you 
get a ticket. If you do have it on, you probably have a pretty 
good chance of not being injured or killed if you get in an 
accident.
    So I say let's really upgrade driver education particularly 
for first-time drivers, 16-year-olds. You know, I have four 
grown children. When they started driving, they all took driver 
education. I lived in fear. I think every one of them had an 
accident. Fortunately, it wasn't serious. But they never 
talked, even back in those days, about fastening a seatbelt. 
Now they do. We need to get them to talk about putting their 
cell phones away.
    There are ways to do these things, .08 and click it or 
ticket proves that we can do it. It is not perfect. But we are 
going to get there. We are at the starting point.
    Mr. Boccieri. There are quite a few people tragically that 
are killed by folks who get behind the wheel or get behind a 
train or whatever other public transit vehicle and they are 
tired. They haven't had enough sleep. Can you speak to that.
    Secretary LaHood. After the Colgan Air crash in Buffalo, we 
conducted 12 safety summits around the country looking at 
regional jets, which I know many of you fly. For 14 years I 
flew one from Peoria to Chicago in order to get out here. And 
during those hearings, we talked about having regional jet 
pilots fly from one part of the country to the other part of 
the country and then start their job and the fatigue involved 
in that.
    We talked about training, and we are going to put out a 
report, and we are looking at this very seriously. We also look 
at that in terms of hours of service for truck drivers. And we 
are addressing that issue. That comes under our purview.
    So we are trying to address these issues.
    Mr. Boccieri. My time is about to expire.
    Just one commitment from you, Mr. LaHood, that this will be 
based on sound research. I trust that you are going to make 
certain that all of this will be based on sound research and 
that every decision that we will make regarding public transit 
will be made from that data.
    Secretary LaHood. Absolutely. We have one of the best 
research departments at DOT. We have just brought some great 
people on. We do a lot of research. Our safety organization, 
called NHTSA, does a lot of good research. It will be based on 
sound research, yes, sir.
    Mr. DeFazio. Mr. Brown.
    Mr. Brown of South Carolina. Thank you, Mr. Secretary, for 
being here today. I enjoyed being with you last night.
    I appreciate your interest in this particular safety issue, 
and I know some of the States have already addressed it.
    Are you encouraging the States to pass some kind of 
restrictive law, or are you looking for Congress to pass a 
Federal law?
    Secretary LaHood. We don't have to give much encouragement 
to States. Eighteen States have done it in all different forms 
and fashions. And as I said earlier, they are the incubators 
for good ideas. Our work will really be with Congress working 
with all of you on the way forward for finding the right 
legislation, and we can do some things on our own. The 
President did sign an executive order. We have told all of our 
people from this day forward, starting a few weeks ago, that 
they can't use their cell phones and BlackBerries and text, 
particularly since many of those devices are government-issued.
    So we can do some things in the Department. We want to work 
with Congress, and the States will be doing their own thing.
    Mr. Brown of South Carolina. I noted that Washington, D.C. 
already has a ban on that. And do we have any statistics to 
prove that before and after the ban whether there is a 
significant drop in fatalities?
    Secretary LaHood. I don't have those figures, but I will 
get them to you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Brown of South Carolina. I think the Ranking Member was 
quoting some statistics about number of fatalities based on 
different actions, and I would just like to bring your 
attention--I know you already know this--that 22,000 Americans 
every year are killed because of unsafe highway conditions. And 
I know that we have been talking about the reauthorization bill 
and where we are going to move on that.
    Could you give us some ideas about when we could expect 
another highway reauthorization bill?
    Secretary LaHood. Well, as you know, we have recommended an 
18-month extension. Not many people around Capitol Hill paid 
much attention to that, since now it looks like there will be 
an extension through maybe December 12th or something like 
that. That is what we have been hearing.
    The President wants a very strong, comprehensive, robust 
transportation bill. He believes in it. We believe in it. We 
believe it can make a difference. We believe it will put people 
to work. But we also believe we have got the find $400 or $500 
billion to pay for it, because that is probably what it takes 
to have the kind of bill that we all want, that you want and we 
need. We need some time to do that, to put together a good bill 
and to find the money to do it.
    So from our end, we are pushing for an 18-month extension.
    Mr. Brown of South Carolina. I would hope that we could 
close that gap some. In my State of South Carolina I know we 
have got almost 12 percent unemployment. I think we are 
approaching 10 percent unemployment around the Nation, and we 
all know that building roads has a direct effect of putting 
people to work. So I would hope somehow that we could all work 
together.
    Secretary LaHood. Mr. Brown, I know that there is probably 
not a person on this Committee that agrees with us on this. Mr. 
DeFazio reminds me of that every time I see him. So does 
Chairman Oberstar. But it is not because we don't want a strong 
bill, a comprehensive bill. We want that.
    We think the bill that Mr. Oberstar and all of you have 
written is a pretty darn good bill. But we need to find the 
$400 or $500 billion to pay for it. And we would like some time 
to do that.
    Mr. Brown of South Carolina. I understand. And I am 
grateful that you talk about 400 or 500 billion so we can 
really solve some of the problems.
    Thank you for your service.
    Mr. DeFazio. Ms. Napolitano.
    Mrs. Napolitano. Thank you, Mr. Chairman.
    Good morning, Secretary LaHood. Good to see you, sir.
    And I am glad that Mr. Bishop is looking at adding to the 
driving school curriculum, that section, to be able to educate 
youngsters.
    Are you, by chance, working with the automobile industry to 
try to develop some technology or mechanisms to be able to 
address some of the things that have been discussed here, 
including the Breathalyzer, something to the effect that the 
automobile would sense any electronic waves going on and warn 
the driver about texting or phone usage, something that would 
help and add to and enhance the ability for that driver to 
remember that it is illegal to do so?
    And when you talk about the issue of distracted driving, I 
think that should be part of some of the States being able to 
ask their law enforcement agencies to include not necessarily 
putting on lipstick. Smoking is also a distraction. I had an 
individual that worked with me that dropped a cigarette, and as 
he was reaching for it down below his feet, he ended up hitting 
another car. So there are many things that cause accidents.
    And how do we get the information disseminated--whether it 
is to the public, whether it is to the car users--should it be 
in manuals that they are given when they purchase a car? All of 
those areas that if we are really going to be serious about 
this, we need to be sure we hit every single area that we can.
    Secretary LaHood. Well, I just spent 2 days in Detroit, 
Congresswoman, and I spent a half a day with each of the 
American car manufacturers, Chrysler, Ford, and GM. And I just 
had the CEO, Mr. Henderson, from GM, in our office a few days 
ago. Every chance I got I asked them for their help on 
distracted driving. We need your help either in advertising 
that you do or in technology that you are looking at. Many of 
them already have technology for hands-free types of 
opportunities.
    But I will tell you this, as I have said earlier, I think 
it is a distraction. But they are committed to working with us 
on this, and they are committed to safety and it is one of 
their top priorities. So we have had lots of discussions with 
them, and I know they will continue.
    Mrs. Napolitano. Even a pamphlet or some kind of an 
indicator inside of a packet when they purchase an automobile 
to remind people that these are things that can conceivably 
lead them to an unfortunate accident.
    The other area is in regards to statistics that might be 
available from the States that have bans on utilization of 
handheld devices. Do you get stats back from them, from law 
enforcement so that we have a better picture of whether it is 
working, those bans are working? Are they being enforced?
    Secretary LaHood. At the summit that we held, the day-and-
a-half summit, we had State legislators from around the 
country. Eighteen States have passed laws with respect to 
distracted driving. Some are different than others, but as I 
said, the States are the incubators. We are going to look at 
what States have done. We are going to provide that information 
to Congress as a way to say this is what States have done and 
work with all of you on the way forward for legislation.
    Mrs. Napolitano. Do you have any future concept of working 
with the cable industry to be able to do it as a public service 
announcement to remind people, especially youngsters and 
families who have youngsters, about some of these distractions 
that they are not even thinking about? The only thing they can 
think of is a cell phone.
    Secretary LaHood. All of the safety groups were at our 
summit. We are working with the National Safety Council and a 
number of other groups who have a great deal of interest in 
distracted driving. They are going to be very helpful to us 
when we figure out exactly what we want to say.
    There is a public service message that has been put up 
already that is running and on the air about distracted 
driving, but we have to say it often enough that people really 
begin to understand it.
    Mrs. Napolitano. Repetition. Thank you, sir.
    Thank you, Mr. Chair. I yield back.
    Mr. DeFazio. Mr. Coble.
    Mr. Coble. Thank you, Mr. Chairman.
    Secretary, good to have had you at the transportation 
dinner last night. It was good to see and visit with you there.
    Mr. Secretary, are cell phone bans common among operators 
of mass transit systems?
    Secretary LaHood. Yes.
    Mr. Coble. I have heard that discussed pro and con. I am 
glad to hear an affirmative answer to that.
    Secretary LaHood. We are developing a rule for trucks, but 
we have put out an enforcement that people who drive trains are 
prohibited from using cell phones.
    Mr. Coble. I thank you for that.
    Mr. Chairman, in the film that was shown to us earlier, it 
indicated that 90 percent of the accidents are a direct result 
of human performance or lack of proper performance. And I think 
that figure alone, Mr. Chairman, indicates the sorely needed 
attention that needs to be directed to this issue.
    Thank you, Mr. Chairman.
    Mr. DeFazio. Ms. Richardson.
    Ms. Richardson. Thank you, Mr. Chairman.
    I just have one question for the Secretary.
    As I read your testimony and you talked about the summit, 
and I believe in here it says together with over 300 experts in 
safety, transportation research, regulatory affairs and law 
enforcement, all participated, and it said that young people 
kind of gave their stories. I would like to take a little 
different spin than some of the comments that I have heard 
today.
    Realistically we live in the 21st century and I don't 
think--I could be wrong--but I don't think we are not going to 
have GPS systems, I don't think we are not going to have 
BlackBerries and phones. I think we are kind of there.
    And so my question would be slightly different. What can we 
do to work with the various industries to say okay, if we are 
going to have some of these devices, how can we have them be 
more safer or in a better environment while we drive or while 
we do the things that we do? Because I personally--you know, 
being of the younger generation, I don't see us where everyone 
is going to put their BlackBerry and put it in the glove 
compartment. I think that would be great, but I don't know if 
that is really realistic of what is going to happen.
    So I would like to suggest another alternative of what can 
we do--and I think some industries are going to talk today--to 
be more proactive and to say as you develop these systems, how 
can we have them make more sense? Because pilots do multitask, 
you know, vessels, everyone is multitasking. We have Members 
who are listening in hearings and texting messages at the same 
time. So what do you think about that theory?
    And I do support all of the enforcement and how we can do 
things better. So I am not in opposition to that. I am just 
saying what about that other piece.
    Secretary LaHood. Let me just first say when people started 
working on .08 and seatbelt laws, people said it couldn't be 
done, you are not going to get drunk drivers off the road, you 
are not going to get people to wear seatbelts. It is a way of 
life for us now, though.
    I think we can get there. I do think it takes a while to 
get this.
    But the specific answer to your question is that the 
wireless industry participated in our safety summit. I was with 
the Chairman of the FCC yesterday at the Senate hearing. They 
are committed. He and I agreed that we are going to get a group 
of people together to figure out how to make these devices 
maybe not as usable, if that is possible.
    But I do think if we use the model of .08 and seatbelt 
enforcement, personal responsibility, education, particularly 
in our driver education programs and with the industry, we will 
get there.
    Ms. Richardson. I look forward to that effort. Thank you, 
sir.
    Mr. DeFazio. Mr. Schock.
    Mr. Schock. I am not sure what can be added other than to 
say I think it is important that aside from all of the votes 
that we take here in Congress and the legislation we could 
push, probably one of the most powerful things that we each 
have is our respective bully pulpits. And as demonstrated by 
States and as demonstrated by the District of Columbia and 
other municipalities that have passed bans on texting, but also 
the longest bans that I am aware of are on cell phone usage. 
And I would argue many of them have not been too effective in 
getting people to stop using their cell phones.
    And I think what is essential--and I am glad to hear the 
Secretary talk about it this morning--is education. Because as 
you mentioned, Chairman DeFazio, the YouTube video, anyone who 
has seen that of the crash with young people there, you can't 
help but be affected. And I think it really makes you reflect 
on your own habits and your own decisions that you are making 
by allowing yourself to be distracted whether it is texting, 
eating, talking to your kids, or whatever it might be that is 
diverting your attention.
    So I would just say I commend the Secretary for making this 
an issue. Certainly more people are talking about it because of 
your leadership, because of the work of your department. I 
commend you for that. I want to work with you. We will support 
legislation here to do something similar to what other 
municipalities have done.
    But I really believe the most important component is for 
all of us to become missionaries for the cause, but also that 
there be a public awareness campaign of the true risk so that 
young people understand--all people, actually. I would argue, 
as one of the younger Members, one of the reasons why young 
people are at risk is because they tend to like their 
technology and use it more frequently. But I think as some of 
our more senior members of the population get comfortable with 
the technology, they will begin multi-tasking as well with text 
messaging.
    But to your point, it is putting down your makeup, it is 
not eating a hamburger, and we still need a strong public 
awareness campaign to help drill that into the minds of the 
people to make wise choices.
    So I look forward to working with you on it, and I thank 
the Chairman for having this meeting.
    Mr. DeFazio. Mr. Arcuri.
    Mr. Arcuri. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for being here and your 
leadership in this area.
    Forgive me if this question was already asked, but are 
there any national statistics out there with regard to the 
number of automobile accidents caused as a result of texting as 
opposed to DWI or alcohol-related?
    Secretary LaHood. We will get those for you.
    [The information follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Arcuri. Thank you.
    And the second point that I want to make is it has been a 
few years since I was a prosecutor, but one of the things that 
I recognized was that as a result of the public outcry, the law 
enforcement agencies did much more with respect to law 
enforcement and the prosecutors did much more with respect to 
the prosecution. That happened not only with DWI where there 
was also the incentive, with respect to the fines, and then the 
prosecutors would look at additional fine money for the police 
agencies to put more police on the street, more prosecutors.
    But additionally, as the outcry developed, we would never 
think twice about not trying to get the maximum for somebody 
that passed a school bus. And yet, you know, there was this 
idea that well, it is just a cell phone or it is just texting. 
And it has been a few years, so I know things have changed. But 
I think your idea about pushing to get the idea out there, that 
this is a major cause, will be critically important.
    And my other suggestion is get the prosecutors on board as 
well because they are the ones that make--we could have the 
police doing all of the things that they need to, but without 
tough fines by the prosecutors, you know, they are just not 
going to stick on the other end.
    Secretary LaHood. I really agree on that, particularly on 
.08. When the laws were passed and it became the standard, 
prosecutors really have made the difference because that really 
gets in the newspaper then because people really see it is 
being taken seriously. It is not just a slap on the hand or a 
slap on the back and see you later or whatever.
    Mr. Arcuri. And the last thing, just from an ex-
prosecutor's perspective, the last thing a prosecutor wants is 
to have let somebody go on a prior texting offense with a slap 
on the wrist and then they cause an accident on it in the 
future.
    So I think as that message gets out to prosecutors as well 
as law enforcement, I think that will greatly strengthen it and 
any incentive you can put in there for prosecutors to get tough 
I think will strengthen it as well.
    So thank you, sir.
    Mr. DeFazio. I thank the gentleman.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you. Thanks for your leadership 
on this issue, especially your summit.
    I was grateful for one of my State representatives, Eugene 
De Pasqually, being allowed to attend, and I know it helped him 
in his work in the general assembly back home.
    I want to especially commend the focus on younger drivers. 
When I was in the State House and we adopted similar State 
laws, as my colleague referenced, about 50 hours with an adult 
and things, it was staggering to see that the greatest threat 
to a 16- or 17-year-old losing his or her life was in a car 
accident.
    So the focus here, and combine that stat that already 
existed prior to texting and cell phones, add the challenge of 
being a good driver with texting, cell phones with a young, 
inexperienced driver, and we truly have a great threat to our 
youth out there.
    Is there any consideration to supporting Federal 
legislation as a starting point to follow the lead of some 
States where we do ban any cell phone use or texting by 18 and 
under? I know some have said 21 or under 21. And the reason I 
suggest that specifically is because of the data about young 
drivers and that we all have learned behavior.
    And my boys are 10 and 13 now. They have never been in a 
car that they weren't strapped in, starting with their baby 
seat, then their booster, car seat, now a regular seatbelt. So 
they get in the car and it is automatic, and it is great 
because they get in the car with my mom--different generation--
and if she doesn't immediately put her seatbelt on, I guarantee 
you one of them makes sure she does.
    So they learned the behavior, and it is going to stay with 
them the rest of their lives. So if we target that younger 
group that we know is at risk to begin with and they know it is 
a learned behavior to not do something, in essence, would the 
administration consider supporting that?
    Secretary LaHood. I think your point is a good point. It is 
not one I have heard--it is not one I have heard during these 
hearings, but I know exactly what you are saying about your own 
children because I have been admonished by my grandchildren, 
who have been in seatbelts all of their lives, that you need to 
put your seatbelt on. And that is a great example, one I am 
going to continue to use from here on out, because I do think 
these learned behaviors at a young age really can make a 
difference. And so I think that is a great point.
    As far as what we are going to support, we are going to 
work with all of you and figure out what the best way forward 
is, trying to see what the States have done that really has 
worked and then incorporate it in what you all want to do in 
the House and Senate.
    Mr. Platts. Thank you, Mr. Secretary, and again, appreciate 
you taking the lead on a very challenging and life and death 
issue.
    Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. Mr. Bishop has one more question, I am told.
    Mr. Bishop. Mr. Secretary, you said a few moments ago--
perhaps it seems like a lot longer ago--that you said you would 
never have thought we would get to where we are now on .08 
percent on blood alcohol content.
    Do you believe that it was the imposition of sanctions that 
got us to that point?
    Secretary LaHood. Well, I believe it was education, 
educating people that drunk drivers injure and kill people. I 
think it was tough penalties. In our State, if you get picked 
up for drunk driving they don't send you home. They, the 
police, don't give you a ride home. They put you in jail, they 
take away your license for 3 months, and you have to pay tough 
penalties, and you have to go to counseling. That is like for 
the first offense.
    Now, you know, when I was growing up or, you know, even a 
few years ago, you know, what would happen. The police would 
throw you in the back of their car, take you home, give you a 
pat on the back. And that doesn't happen any more.
    So it is a combination of a lot of things, Mr. Bishop. And 
that is why I say solving this texting is a combination--will 
take a combination of good education, personal responsibility, 
and strong enforcement.
    Mr. Bishop. If I may--I am in full agreement with what you 
just said. If I may, it does appear, though, that there is a 
very clear track record that when we impose sanctions as 
opposed to incentives that we get the kind of compliance we 
were hoping for.
    I mean, for example, the minimum drinking age, every State 
complies as a result of sanctions. Zero alcohol tolerance in 
1995, every State complies. Commercial driver's license law, 
every State complies. Yet when we do something like child 
safety and booster seat incentive grants, so far only five 
States have come into compliance beyond those that were already 
in compliance. When we did primary seatbelt law incentive, so 
far only 10 States have come into compliance in addition to the 
19 States that were already in compliance.
    So it seems to me that we have a pretty clear history that 
sanctions are more effective at bringing about the kind of 
behavior we all find desirable than incentives are.
    Secretary LaHood. I think you have answered your own 
question.
    Mr. Bishop. That was one of the reasons I wanted to pose 
it.
    Secretary LaHood. You got it on the record very well.
    Mr. Bishop. Thank you, Mr. Chairman. I yield back.
    Mr. DeFazio. I have no further questions. Unless Mr. Duncan 
has further questions, we will thank you for your testimony.
    Secretary LaHood. Thank you.
    Mr. DeFazio. And you notice I did not raise the issue of 
the reauthorization with you today.
    Secretary LaHood. You got a Republican to do it. Very 
bipartisan.
    Mr. DeFazio. You will find there is some substantial 
unanimity among Members of this Committee that we need a long-
term authorization.
    Thank you, Mr. Secretary.
    Secretary LaHood. I am glad you didn't pass up the 
opportunity.
    Mr. Coble. Mr. Chairman, I want to remind the Secretary 
that neither did I mention the Yadkin River bridge again, Mr. 
Secretary.
    Secretary LaHood. I have heard from every Member of your 
delegation, Mr. Coble. Now you twice.
    Mr. DeFazio. We will now ask for the next panel to come 
forward.
    Mr. Vernon Betkey, Jr., Chairman, Governors Highway Safety 
Association; Mr. Tom Dingus, Director, Virginia Tech 
Transportation Institute will make a second appearance; Mr. 
Bobby Franklin, Vice President of CTIA - the Wireless 
Association; Mr. John Ulczycki, Group Vice President - 
Research, Communications & Advocacy, National Safety Council; 
Mr. Randy Mullett, Vice President of Government Relations and 
Public Affairs, Con-way Inc.; Mr. Robert Strassburger, Vice 
President of Safety & Harmonization, Alliance of Automobile 
Manufacturers; and Mr. Edward Wytkind, President of 
Transportation Trades Department, AFL-CIO.

TESTIMONY OF VERNON F. BETKEY, JR., CHAIRMAN, GOVERNORS HIGHWAY 
    SAFETY ASSOCIATION; TOM DINGUS, DIRECTOR, VIRGINIA TECH 
   TRANSPORTATION INSTITUTE; BOBBY FRANKLIN, EXECUTIVE VICE 
  PRESIDENT, CTIA - THE WIRELESS ASSOCIATION; JOHN ULCZYCKI, 
  GROUP VICE PRESIDENT - RESEARCH, COMMUNICATIONS & ADVOCACY, 
   NATIONAL SAFETY COUNCIL; RANDY MULLETT, VICE PRESIDENT OF 
 GOVERNMENT RELATIONS AND PUBLIC AFFAIRS; ROBERT STRASSBURGER, 
     VICE PRESIDENT OF SAFETY & HARMONIZATION, ALLIANCE OF 
   AUTOMOBILE MANUFACTURERS; AND EDWARD WYTKIND, PRESIDENT, 
           TRANSPORTATION TRADES DEPARTMENT, AFL-CIO

    Mr. DeFazio. We will start in the order I read your names. 
So, Mr. Betkey, you are recognized for 5 minutes.
    I have read your all of testimony, and I know the Members 
have as well, so I am going to ask you to summarize your best 
points.
    If you are familiar with other members of the panel and 
their position--in particular, I would note there is 
disagreement over gradations of problems with the distracted 
driving and electronic devices. And one member of the panel 
asserts quite definitively that even voice actuated cell phones 
are as bad as handheld cell phones and others. And anybody who 
wants to address that because that will be an ongoing concern 
to the Committee.
    So thank you. You will each be recognized for up to 2 
minutes to summarize, and then we will try to get into 
questions and a little interaction with the members on the 
panel.
    Mr. Betkey.
    Mr. Betkey. Chairman DeFazio, Ranking Member Duncan and 
Members of the Committee, thank you for the opportunity to 
testify today to discuss the important issue of distracted 
driving, and I thank you for giving national attention to 
distracted driving and also to highway safety in general. It is 
very important to all of us.
    I am Vernon Betkey. I am the Chairman of the Governors 
Highway Safety Association, and I am Maryland's Highway Safety 
Coordinator as well.
    The Governors Highway Safety Association is a nonprofit 
organization that represents State highway safety agencies. The 
GHSA is very concerned about distracted driving and believes 
that the problem is only going to worsen in the future, 
particularly as new technologies are developed and brought into 
the vehicle.
    While we are grateful for the attention being paid to this 
serious highway safety problem, we submit that the problem 
cannot be solved by the enactment of legislation alone. We 
adamantly suggest a comprehensive approach that includes data 
and research, legislation, education, enforcement, and 
adjudication, employer policies, technology, and funding.
    Further, we suggest that both the Federal and State 
governments have a strong role to play in each of these areas. 
The Federal Government can ensure that States take action based 
on solid research and data, best practices and model policies. 
And they can also ensure that they develop appropriate training 
for law enforcement and the judiciary, construct media 
campaigns that can be implemented by the States and evaluate 
technology that will control or manage distractions in the 
vehicles. The States can enact and enforce appropriate 
legislation, implement community-based education campaigns, and 
work with employers and the judiciary.
    Together, and with adequate funding, Federal and State 
governments can work to minimize distractions, maximize public 
safety and reduce crashes, deaths, and associated injuries on 
the Nation's highways.
    That concludes my testimony, Mr. Chairman. I appreciate the 
opportunity to be with you here today, and I look forward to 
answering your questions.
    Mr. DeFazio. Thank you for being succinct.
    Dr. Dingus.
    Mr. Dingus. Thank you, Mr. Chairman, Ranking Member Duncan, 
and Members of the Subcommittee. Thank you for the opportunity 
to testify before you today on this important topic.
    My name is Tom Dingus. I am from Virginia Tech. I am 
testifying before you today as a 25-year veteran of driving 
safety research for several important points that must be 
carefully considered in determining an appropriate action to 
this growing problem.
    First, our research has shown that the distraction issues 
that we face today are much different than those we faced just 
a few years ago, and consequently are resulting in a growing 
number of crashes. Texting, typing, reading, and dialing are 
much, much worse than eating, tuning a radio or talking.
    Second, our driving distraction problem is particularly 
time critical because the number of crashes involving complex 
tasks is growing exponentially.
    Third, while safety benefits can be realized with the 
deployment of electronic devices, these benefits can only be 
attained in vehicles engineered to minimize driver distraction.
    Fourth, teen drivers by far represent the largest 
population of those who engage in complex tasks while they 
drive and, consequently, are at a greatest risk.
    Fifth, the problem of driver distractions associated with 
electronic devices is multi-dimensional, requiring multiple 
solutions. Specifically, major differences exist between 
devices that are designed to be used in the vehicle and 
portable devices that are carried by consumers in the vehicles.
    In conclusion, driving distractions associated with 
electronic devices is creating a serious, rapidly growing 
public health risk. However, measured action is warranted so 
that solutions enacted with good intent do not stifle 
improvements in traffic safety. Therefore, I recommend the 
following approach:
    One, a national primary law banning the use of handheld 
wireless devices in a moving vehicle; two, regulations limiting 
functionality of visually demanding in-vehicle devices in a 
moving vehicle, including trucks; third, broadly applied 
standards for testing of potentially distracting devices prior 
to market introduction.
    Thank you very much.
    Mr. DeFazio. Mr. Franklin.
    Mr. Franklin. Mr. Chairman and Members of the Subcommittee, 
on behalf of CTIA and our wireless industry members, thank you 
for the opportunity to be here.
    With more than 280 million subscribers connected just about 
anywhere at any time, the wireless industry recognizes that 
being always available can have a downside when irresponsible 
drivers manually text and e-mail while behind the wheel. When a 
driver takes their eyes off the road and their hands off the 
wheel to send or read a text or e-mail, their actions are not 
compatible with safe driving.
    To help solve this problem, CTIA advocates for three 
components: Legislation, technology, and education. We believe 
this strategic combination is most likely to deliver the 
results we all desire: safer drivers and safer roads.
    First on legislation, CTIA has been working with the 
National Conference of State Legislators to create model 
legislation that could be adopted across the country that 
prohibits manual texting and e-mailing while driving. However, 
as Secretary LaHood has noted, we won't make this problem go 
away simply by passing laws.
    Second, we believe technology will continue to improve 
safety through new apps, changes in cars, even the roads 
themselves. It is important technology be effective and 
consumer friendly, but also that legislation not freeze 
innovation in place with inflexible mandates.
    Finally, third--and we believe the most important component 
to changing behavior--is education. Earlier this year, CTIA 
partnered with the National Safety Council to develop the on-
the-road off-the-phone campaign, educatingteen drivers and 
their parents about the dangers of distracted driving. We 
believe this PSA is impactful and are proud that so many have 
already viewed this TV spot.
    Thanks again for the opportunity to be here. As we have 
just seen, the wireless industry continues to demonstrate our 
attempt to change this behavior.
    Mr. DeFazio. Thank you.
    Mr. Ulczycki.
    Mr. Ulczycki. I am Vice President of Research, 
Communications & Advocacy for the National Safety Council.
    Chairman DeFazio, Ranking Member Duncan, thank you for the 
opportunity to speak about the dangers of distracted driving 
and the use of cell phones.
    Earlier this year, the NSC became the first national 
organization to call for a ban on all cell phone use while 
driving. As an employer organization, we did that based on the 
risk and on the exposure. We estimate there are 100 million 
people in the United States who engage in this risky behavior.
    More than 75 research studies have shown that using a phone 
while driving is dangerous. Multiple studies have established 
that the risks of using a cell phone while driving increases 
the risk of a crash by four times. More than 30 research 
studies have shown that there is no safety benefit from hands-
free devices.
    There are three principal distractions from cell phone use. 
The first two are visual, taking your eyes off the road, and 
mechanical, taking your hands off the wheel. And that is 
clearly what happens when people are texting or reading or 
sending e-mail, and those are of great concern to us.
    The third cognitive distraction, taking your mind off the 
road, is also of great concern. Brain scan imagery shows that 
30 percent of the brain that should be engaged if driving is 
lost while you are talking on a cell phone. So one effect is 
that people on cell phones can have their eyes straight ahead 
on the road but they truly do not see vehicles or pedestrians.
    We are taking a multi-faceted approach to this problem, 
including legislation, enforcement, education, technology, and 
employer policies. We know that strong laws visibly enforced 
are the most effective method to change behavior. We know a 
total ban on cell phone use is necessary because cell phone 
conversations are causing the largest number of crashes.
    We are reaching out to law enforcement to encourage 
enforcement pilots that will demonstrate that cell phone laws 
can be enforced. We are developing educational initiatives, 
such as the one that my associate from CTIA just showed you, to 
reach teens and their parents. We are working with companies to 
develop technologies that manage incoming and outgoing calls 
and messages.
    We have called on employers to act on more than 460 of our 
member companies, including commercial carriers, bus companies, 
and some of the world's largest and smallest companies have put 
in total bans on cell phone use by all of their employees, 
covering 1.5 million employees today.
    We encourage the Congress to enact or encourage States to 
pass strong laws banning cell phone use while driving. We also 
encourage the Congress to support research that will quantify 
the number of deaths and injuries that are being caused by both 
handheld and hand-free conversations.
    Thank you again for this opportunity to discuss this issue.
    Mr. DeFazio. Thank you.
    Mr. Mullett.
    Mr. Mullett. Chairman DeFazio, Ranking Member Duncan, 
Members of the Subcommittee, thank you for the opportunity to 
testify on behalf of the American Trucking Associations on 
distracted driving.
    ATA recognizes that a driver's ability to perform multiple 
cognitive tasks simultaneously is extremely limited. Our 
membership agrees that the use of some technologies, 
particularly handheld electronic devices, has increased the 
potential for driver distraction beyond the benefits derived 
from their use. In fact, the majority of fleets, including Con-
way, have policies and procedures in place to limit their use 
while the truck is moving.
    We believe that a systematic approach is necessary to 
ensure that the use of these devices does not contribute to 
crashes.
    ATA supports legislation to ban the practices of reading, 
writing, or sending text messages on a handheld mobile device 
while driving. Specifically, we support the anti-texting 
provisions contained in the Alert Drivers Act in 2009, as 
introduced in the Senate. I believe that the companion is Mrs. 
McCarthy's bill that she spoke about this morning.
    However, other strategies are needed to bolster Federal and 
State law. Public attitudes and perceptions will need to 
change, and any legislation will have to apply to all drivers 
on the highway. In addition to effective legislation and 
regulation, we need a significant public education effort, 
exploration into the use of technology to reduce distractions 
caused by technology, tough penalties and effective enforcement 
of the laws, and proper funding of these initiatives.
    ATA believes that efforts to regulate the use of vehicle 
communication devices other than handheld units used for 
texting should be done through regulation, not legislation.
    In-cab fleet communication systems have been used in the 
trucking industry for many years. These systems help drivers 
perform their jobs safely, effectively, and efficiently. 
Because of the special characteristics of in-cab communication 
and the way these technologies are used in the trucking 
industry today, detailed analysis and public comment is 
required if restrictions are being considered. The efficiency 
and safety benefits of in-cab communication technologies should 
not be lost, but they can be reasonably restricted.
    Mr. Chairman, ATA looks forward to working with Congress 
and the administration to ensure that in-cab communications 
technology is used safely and responsibly.
    Thank you for the opportunity to testify.
    Mr. DeFazio. Mr. Strassburger.
    Mr. Strassburger. Thank you, Mr. Chairman.
    Turning directly to the matter at hand, Alliance members 
are committed to advancing motor vehicle safety, and we take 
concerns about driver distractions seriously. From step one, we 
engineer new vehicle information and communication systems, 
telematic systems, to help the driver perform their primary 
task: the safe operation of their car or truck.
    We do this by engineering these systems according to our 
driver-focused telematics guidelines. These guidelines address 
the essential safety aspects of driver interaction with visual/
manual interfaces with the goal being to maximize eyes on the 
road.
    It is a rare crash that occurs while a driver's eyes are on 
the roadway. When a driver's eyes are not, the risk of a crash 
increases. Looking away from the road scene is the principal 
contributor to crashes and near misses. But we are not stopping 
there.
    Automakers are working on important safety enhancements 
right now that use wireless communications. In the near future, 
cars will be linked wirelessly to other cars near them and with 
their surroundings to further enhance safety by informing 
drivers of hazards and situations they can't see. Realtime 
navigation will also be provided, which will be critical to 
advancing how we manage congestion and even further reducing 
C02 emissions.
    So what should be done?
    We need appropriate laws with high visibility enforcement. 
We need consumer education about these laws and to support law 
enforcement activities and, further, to educate drivers about 
the risks of driving distracted.
    Finally, we need continued research so that we can further 
understand driving behaviors to enable the development of ever 
safer systems. And all of this should be done without severing 
the wireless communication link to vehicles, which enables 
tomorrow's safety and environmental benefits.
    Mr. Chairman, that concludes my statement.
    Mr. DeFazio. Thank you.
    Mr. Wytkind.
    Mr. Wytkind. Thank you, Mr. Chairman and Mr. Duncan and the 
Subcommittee, for inviting Transportation Labor to testify.
    No one wants to improve the safety of our highways more 
than the men and women who drive for a living. And to truly 
combat distracted driving, we believe we must ban text 
messaging and limit the use of other communication devices.
    However, new policies must strike the balance between 
safety and the unique concerns and working environment of 
transportation workers. For many of our members, the vehicle is 
their workplace and communications devices are critical to 
performing their functions. Transportation workers need access 
to communication devices for everything from emergency 
situations to communicating with an employer, and first 
responders rely on communication devices to respond effectively 
and efficiently.
    The reason we are here today is because our roads are far 
too dangerous. We concur with that. And because of the sheer 
time that drivers that I represent spend on the road, they 
witness accidents all the time. They are often the first or 
only person available to alert the authorities so we must be 
sure they are able to help to perform that function, and this 
requires access to a cell phone or other device.
    Clear policies are needed. Let me give you an example: In 
some States bus drivers are allowed to use cell phones in 
emergencies as long as the driver is stopped and off the bus. 
But a competing policy forbids bus drivers from leaving the bus 
even in the event of an emergency. These two directives are 
obviously at odds, and that is bad public policy.
    But setting that question aside, it illustrates the need to 
examine the real world consequences of policy making and to 
make sure that you enlist the employees of this industry and 
their unions in advancing any ideas you might put forward.
    Employees and other sectors of the economy can use the 
phone for occasional personal use and family emergencies, but 
of course for transportation workers whose workplace is their 
vehicle, the situation is different. Because they are required 
to be in their vehicle all day, the ban would prevent drivers 
from making calls that you and I take for granted. So while 
this may not be a policy concern for policy leaders, employers 
must take notice of this problem.
    Bus drivers, taxi cab drivers, vehicles for hire and others 
rely on citizens band radio, GPS devices, and other 
technologies to do their jobs. And if limits are imposed, the 
implications for workers must be understood.
    Because workers are required by their employers to use 
these devices, any penalties for using devices on the job must 
be directed at the employers, not the employees. And for 
firefighters and paramedics, cell phones and PDAs are 
essential. The last thing we want to do is take away a tool for 
these emergency responders when they are en route to an 
emergency. We want to be sure that regulators understand these 
unique situations.
    Lastly, as you move forward, we ask that you recognize the 
role that mobile communications play in our sector. We must 
look very carefully at public policy ideas and understand the 
real world implications for workers and hopefully through their 
unions we can advocate the right balance.
    Thank you for inviting us today, Mr. Chairman.
    Mr. DeFazio. Thank you. We will proceed to questions.
    The one major issue in contention I would like any and all 
members of the panel to address is this disagreement over the 
issue of cognitive distraction just by engaging in a 
conversation on a cell phone even if it is voice-activated and 
hands-free. Obviously, the manufacturers feel--and it was 
earlier described by someone the device in a Ford vehicle where 
you could voice activate a BlackBerry and conduct a 
conversation.
    But Mr. Ulczycki would say that a hands-free cellphone is 
as dangerous as a hand-held cell phone. I don't know if it goes 
so far as to say it is as dangerous as texting. So anybody want 
to jump in on that?
    Dr. Dingus, you have done a lot of work. You have done what 
they call naturalistic studies. They have done some cognitive 
MRI-based studies. I am having trouble relating to Mr. 
Ulczyki's position that hands-free cell phones are as dangerous 
as hand-held phones.
    Could you address that?
    Dr. Dingus. Yes, Mr. Chairman.
    There is a big difference. If your eyes are off the road, 
for example, some of these tasks require your eyes to be off 
the road for 4 or 5 seconds. If you are engaged in an intense 
cell phone conversation, the best data we have is your reaction 
time is delayed by three-tenths of a second. So it is an effect 
but it is about one-tenth the effect of taking your eyes off 
the road for some of the video that I showed. So it is not that 
there is no effect, but it is much, much less.
    Mr. DeFazio. Anybody else want to jump in on that issue?
    Mr. Ulczycki. Yes, sir, I would like to address that.
    While the risk shown from Dr. Dingus's studies, while the 
risk associated with taking your hands off the wheel and your 
eyes off the road are significant, the duration of those 
activities is much shorter than the duration of conversations. 
A conversation, people may be engaged in a conversation during 
most of a 1-hour commute, for example, yet the actual time they 
spent dialing the phone or taking their eyes off the road would 
be much smaller. And we think it is the duration of the 
conversation and the total exposure that actually causes the 
conversations to cause more crashes rather than the taking the 
eyes off the road and the hands off the wheel. It is really the 
combination of risk and exposure.
    Mr. Strassburger. If I could, Mr. Chairman, let me just 
follow up with what both John and Dr. Dingus talked about.
    The real world studies that Dr. Dingus has conducted and 
other studies that we are aware of are consistent and they are 
not showing as great an effect from cognitive distraction as we 
once thought from other studies, epidemiological studies, or 
simulator-based studies.
    With respect to one study that I am aware of, it was a 
study conducted by OnStar, published in a peer reviewed 
journal, called Risk Analysis that looked at 3 million drivers 
and 91 million minutes of cell phone usage. There the average 
conversations was on the order of 2 minutes where the carrier 
rounded up by 1 minute. So drivers are able to self-regulate, 
and it appears from the studies, the naturalistic studies, that 
that is exactly what they are doing.
    Mr. DeFazio. If I could, to follow up on.
    If it is the intensity of the conversation and the duration 
that is a factor, I really don't understand how having a 
passenger sitting next to you and having an intense 
conversation or argument with them wouldn't be equally 
dangerous.
    Mr. Ulczycki. Yeah, and the science has shown that they are 
clearly very different because in fact the passenger very often 
is a co-driver and an adult passenger in particular is seeing 
the road in front of them and helping the driver manipulate and 
navigate those situations. That is not the case when you are 
talking on a cell phone, and there have been numerous studies 
that have shown the difference.
    In fact, adult passengers are a safety benefit. People get 
in fewer crashes--adults get in fewer crashes with adult 
passengers. That is not the case with teenagers where 
passengers are clearly a distraction.
    Mr. DeFazio. Anybody else have an opinion?
    Okay. With that, Mr. Duncan stepped out for a moment. There 
is a vote, but they are delaying this vote for some period of 
time.
    So I am going to recognize Mr. Bishop now, and I will have 
to step out to answer questions with my staff.
    So you are in charge.
    Mr. Bishop. [Presiding.] I am not sure I am up to this, Mr. 
Chairman.
    I have some questions for Mr. Betkey, if I may.
    Mr. Betkey, did the Governors Association support the 21 
drinking age sanction?
    Mr. Betkey. No, they did not.
    Mr. Bishop. Now that it is in place, does the Governors 
Association recognize that this was good public policy?
    Mr. Betkey. It has shown that it has been, yes.
    Mr. Bishop. Did the Governors Association support the .08 
percent blood alcohol content sanction?
    Mr. Betkey. No, they did not.
    Mr. Bishop. And now that that is in place, does the 
Governors Association recognize that that is good policy?
    Mr. Betkey. It is shown that it has.
    Mr. Bishop. You know I have a bias here obviously.
    Is it reasonable to think that those laws would have been 
in place and fully compliant across our 50 States had we not 
imposed the sanctions?
    Mr. Betkey. That is a good question, Mr. Bishop.
    I guess that with the sanctions imposed, it accelerated the 
time frame. Given time, the States probably would have probably 
come into compliance with incentives.
    Mr. Bishop. Has any State ever lost Federal highway dollars 
as a result of their failure or inability to comply with a 
sanction-imposed requirement?
    Mr. Betkey. Not to my knowledge.
    Mr. Bishop. So if that is the case, are--this is an honest 
question--are we dealing with a philosophical issue or are we 
dealing with an issue that is practical? I mean, if we agree 
that the public policies that the Federal Government has tried 
to put in place has had the kind of outcomes that any 
reasonable person would support, and if we agree that States 
have never lost dollars as a result of sanctions being imposed, 
what is the antipathy to the sanction?
    Mr. Betkey. I would say it is a philosophical difference 
from the Association. The Association has never approved of 
sanctions. We were always more from an incentive side than the 
sanctions side. And remembering, too, Mr. Bishop, that we work 
for the States that would be sanctioned. So it would be very 
hard for us to take a position against our own State.
    Mr. Bishop. Understood.
    One last question. Does the Association have any statistics 
on how many lives either have been lost or would have been 
saved as a result of sanctions--I mean that have been lost as a 
result of States not accepting the incentives associated with 
the child booster seat law, for example, or the primary 
seatbelt law?
    Mr. Betkey. I don't have those statistics with me, but we 
can certainly research them and get back to you.
    Mr. Bishop. Thank you.
    I will yield to my friend from California.
    Mrs. Napolitano. Thank you, Mr. Bishop. And I am sitting 
here listening with great interest.
    Most of you deal with adults, and yet it is the children or 
the youngsters aged 18 I would imagine that have the highest 
rate of accidents or possibility of getting into accidents 
because of their ability to multitask.
    What are your suggestions? Not any of you are under 18. You 
have children. You have youngsters that you know. What do they 
tell you? What is it that we can do to convince these 
youngsters the importance of their ability to be cognizant that 
they are in a death machine, if you want to call it that? I am 
not talking about it will kill somebody, but it is a 
possibility. It is a vehicle. It can maim, kill-- themselves 
and somebody else.
    How do we get that important message to the youngsters in 
the different areas that you are in?
    Mr. Ulczycki. Congresswoman, I would like to address that.
    A couple of things. First of all, there is no good 
substitute for good parenting, and I must tell you that parents 
play an important role in managing the risks of their teens. 
And we have seen this in graduated licensing, because even if a 
State doesn't have a perfect graduated licensing law in their 
State, a parent can have a perfect graduating license law in 
their home.
    And we think parents are critical. And a lot of parents of 
teenagers--and I have had six myself--know or believe that the 
kids aren't listening to them but the research is clear that 
they are, that kids do listen to parents. So that certainly is 
the first, is parent education.
    And one of things that we did with CTIA in the PSA you saw, 
it is really targeting parents to engage in that conversation. 
So that is the first part.
    The second part is that it is difficult--and we have seen 
no evidence that general communications to teens, which are 
risk takers, telling them about the risks by itself is enough 
to change their behavior. Risk takers do not--education 
awareness doesn't make risk takers change their risk levels. 
What does work, though, are a couple of things. We have seen 
that when teens get together in working groups, in what is 
called peer-to-peer programs, that those can be effective in 
peer groups and in some high schools where that has been done. 
And we have seen that. That has indeed been very effective.
    We think there are in fact some kinds of online and some 
viral programs that we are testing that we are very optimistic 
about in terms of not messages necessarily coming from adults 
but messages coming from the teens themselves, sharing among 
them and really establishing culture, what we could call social 
norms among teen groups, where it is simply not cool to text 
while driving. And if the teens are sharing that message among 
themselves, we think it has a much higher likelihood of 
success.
    Mrs. Napolitano. That is a great video.
    But have you considered having youngsters develop a peer 
program, interactive virtual reality-type thing to where they 
understand their concept of what it means?
    Mr. Ulczycki. Yes. As a matter of fact we just gave out 
some awards this past weekend to a group of kids from Minnesota 
who did exactly that, and there are groups around the country 
in high schools and kids who are doing programs among 
themselves and their own peer groups.
    Mrs. Napolitano. I would hope you share them.
    Mr. Ulczycki. Be happy to.
    Mr. Franklin. Congresswoman, if I may, John just mentioned 
working with CTIA and we did the PSA which, as he noted, was 
directed at parents. We think parents have a lot of sway over 
their teen drivers in setting the rules.
    But just before the hearing started, I hadn't seen John in 
a couple of weeks because of some of his meetings, and we 
caught up because we have been e-mailing back and forth about 
other components of our campaign, meaning we are trying to 
develop viral videos that would show up where teens are online, 
on YouTube, places like that, that, as he says, can have teens 
talking directly to teens to try to make it very uncool to do 
what it is that they are doing that is so dangerous.
    Mr. DeFazio. [Presiding.] I just want to warn you the votes 
are picking up now, so this vote will probably close out pretty 
quickly.
    Mrs. Napolitano. Okay.
    Sometimes unfortunately parents are not there. It is either 
a dysfunctional family or they don't have somebody.
    But the last question very quickly is following the metro 
derailment in California, there was an intense debate about 
putting video cameras on the rail, the train, and that was 
opposed. But how do you feel--and I know that it is an invasion 
of privacy--but would that help being able to keep people from 
doing things they are not supposed to, especially if they are 
banned?
    Mr. DeFazio. I am going to leave you with the gavel because 
the votes are running down here.
    And I have additional questions. I will submit them in 
writing, particularly to Dr. Dingus, regarding commercial 
applications.
    Thanks very much. I appreciate it. Sorry about the abrupt 
ending here. I appreciate your testimony in this matter.
    [Whereupon, at 11:30 a.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
